                                                                         OFFICE OF THE CHIEF 


U.S. Department of Labor                                                 FINANCIAL OFFICER 



                           Office of Inspector General—Office of Audit




                                                                         CONTROLS OVER TRAVEL CARD ACCOUNTS
                                                                         NEED STRENGTHENING


D
I
S
C
U
S
S
I
O
N

D
R
A
F
T




                                                                                               Date Issued:   September 13, 2013
                                                                                            Report Number:      17-13-001-13-001
Department of Labor                                   September 2013
Office of Inspector General
Office of Audit                                       CONTROLS OVER TRAVEL CARD ACCOUNTS
                                                      NEED STRENGTHENING

BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number 17-13-001-13-001,
issued to the Chief Financial Officer.
                                                      Our audit found that improvements are needed in
                                                      the administration of the DOL travel card program
WHY READ THE REPORT
                                                      to ensure that travel cards are used for authorized
                                                      purposes and are cancelled in a timely manner.
The Travel and Transportation Reform Act of 1998
                                                      We found employees using their travel cards while
requires government employees to use the
                                                      not on official travel or using the cards for
Government travel card (travel card) on official
                                                      unauthorized purposes while on official travel. We
business. Government employees must use the
                                                      also identified employees who had travel card
travel card to pay for official expenses, such as
                                                      accounts that had no usage for at least two years.
hotel rooms and airline tickets. In 2008, the
Department of Labor (DOL) selected Citibank to
                                                      We also identified 68 separated employees who
provide purchase and travel card services under
                                                      still had open travel card accounts. Furthermore,
GSA’s SmartPay 2 program.
                                                      we identified 1,123 travel card accounts that were
                                                      not cancelled in a timely manner, several of which
A former employee informed the Office of
                                                      were cancelled more than one year after the
Inspector General (OIG) that he received a new
                                                      employee separated. Finally, we found that
travel card after he had separated from DOL. The
                                                      employees did not always include required
Office of the Chief Financial Officer (OCFO) is
                                                      supporting documentation in DOL’s electronic
responsible for the DOL travel card program’s
                                                      travel system for travel expenses exceeding $75
administration; however, responsibilities such as
                                                      dollars.
travel card applications, travel approval,
monitoring, and card/account closure are executed
at the component agency and regional level. The
                                                      WHAT OIG RECOMMENDED
Agency/Organization Program Coordinator
(A/OPC) serves as the liaison between the DOL
                                                      To improve the administration of the travel card
agency, Citibank, and the cardholder. The A/OPCs
                                                      program, we made six recommendations to the
handle travel card applications and closure as well
                                                      Chief Financial Officer covering policies,
as monitor card use, and are required to receive
                                                      procedures, and oversight. These
training before and during their serving in this
                                                      recommendations included: (1) close the travel
position.
                                                      card accounts of separated employees that are still
                                                      open and develop policies and procedures to close
WHY OIG CONDUCTED THE AUDIT
                                                      travel card accounts on or before date of
                                                      separation, (2) enforce established policies and
The audit objective was to answer the following
                                                      procedures to conduct periodic reviews of travel
question:
                                                      card accounts, and (3) increase monitoring of the
Did the OCFO adequately administer the DOL            charge card reports to ensure travel card accounts
travel card program?                                  are being used in accordance with regulations and
                                                      guidance.
READ THE FULL REPORT
To view the report, including the scope,              The CFO agreed with the recommendations and
methodology, and full agency response, go to:         has planned to take actions to address them.
http://www.oig.dol.gov/public/reports/oa/2013/17-
13-001-13-001.pdf
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
                                     Report No. 17-13-001-13-001
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents


Assistant Inspector General’s Report ......................................................................... 1


Results in Brief.............................................................................................................. 2


Objective — Did the OCFO adequately administer the DOL travel card program?. 3
         Travel card accounts could be suspended due to unauthorized activity............... 3


         Finding — OCFO did not adequately administer the DOL travel card 

                   program............................................................................................... 3


Recommendations ........................................................................................................ 9


Exhibits
         Exhibit 1 Transactions Incurred By Active Employees While Not On Travel ...... 13

         Exhibit 2 Statistical Results and Projections....................................................... 15

         Exhibit 3 Separated Employees With Open Travel Card Accounts .................... 17


Appendices
         Appendix A Background ..................................................................................... 21

         Appendix B Objective, Scope, Methodology, and Criteria .................................. 23

         Appendix C Acronyms and Abbreviations .......................................................... 27

         Appendix D OCFO Response to Draft Report .................................................... 29

         Appendix E Acknowledgements ......................................................................... 33





                                                                     Controls Over Travel Cards Need Strengthening
                                                                                       Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
                                     Report No. 17-13-001-13-001
                                                           U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                                 Office of Inspector General
                                                         Washington, D.C. 20210




September 13, 2013

                                   Assistant Inspector General’s Report



James L. Taylor
Chief Financial Officer
Office of the Chief Financial Officer
U.S. Department of Labor
200 Constitution Avenue, NW
Frances Perkins Building
Washington, D.C. 20210

The Travel and Transportation Reform Act of 1998 requires government employees to
use the Government travel card (travel card) for travel expenses1 when on official
business. In 2008, the Department of Labor (DOL) selected Citibank to provide travel
card services under the General Services Administration’s (GSA) SmartPay program.
DOL utilizes an electronic travel service (ETS), E2 Solutions (E2), for authorizing travel;
booking flights, hotels, and transportation; and preparing and approving vouchers for
reimbursement. This audit was initiated when a former senior level employee informed
the OIG that he received a new Government travel card after he had separated from
DOL.

Office of Management and Budget (OMB) Circular No. A-123 (OMB A-123),
Appendix B, sets the policies and procedures federal agencies should use to maintain
internal controls that reduce the risk of fraud, waste, and error in Government charge
card programs. OMB A-123 also establishes minimum requirements and suggested
best practices for card use. DOL established travel policies and procedures through
Department of Labor Manual Series (DLMS), Chapter 7, General Travel Regulations.
The Office of the Chief Financial Officer (OCFO) is ultimately responsible for the DOL
travel card program’s administration; however, responsibilities such as travel card
applications, travel approval, monitoring, and card/account closure are executed at the
component agency and regional level. The Agency/Organization Program Coordinator
(A/OPC) serves as the liaison between the DOL agency, Citibank, and the cardholder.
The A/OPCs handle travel card applications and closure as well as monitor card use,
and are required to receive training before and during their serving in this position.




1
    Travel expenses include costs for hotel rooms and airline tickets.

                                                                   Controls Over Travel Cards Need Strengthening
                                                           1                         Report No. 17-13-001-13-001
                                          U.S. Department of Labor – Office of Inspector General


We conducted this audit to answer the following question:

Did the OCFO adequately administer the DOL travel card program?

The audit covered the use of travel cards by active employees who participated in the
travel card program from Fiscal Year (FY) 2011 through the first two quarters of
FY 2012 and by separated employees who participated in the travel card program from
FY 2009 through FY 2011 and the first two quarters of FY 2012. We interviewed OCFO
officials and A/OPCs from the national and regional offices to gain an understanding of
the travel card program. We identified federal and DOL requirements related to the use
and closure of travel cards, and reviewed DOL’s Human Resource and Citibank
databases to identify separated and active employees who were issued a travel card
while employed with DOL. Our testing of active employees included comparing account
activity in the Citibank database to approved travel authorizations and related vouchers
to determine if the activity was authorized and amounts were accurate. Our testing of
separated employees included determining if any accounts were open and if activity had
occurred after the employee was separated.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in
Appendix B.


RESULTS IN BRIEF

Our audit found that improvements are needed in the administration of the DOL travel
card program to ensure that travel cards are used for authorized purposes and are
cancelled in a timely manner. Specifically, we reviewed a sample of 174 active
employees’ travel card accounts and found employees using their travel cards while not
on official travel or using the cards for unauthorized purposes while on official travel.
Furthermore, we identified 934 out of 8,959 employees that had travel card accounts,
but did not need them because they were never used over a 2-year period. Additionally,
we reviewed 1,482 travel card accounts of separated employees and found that DOL
did not timely cancel 1,123 of these accounts upon the employees’ separation, several
of which were cancelled more than 1 year after the employee separated. Finally, we
found that employees did not always include required supporting documentation in E2
for travel expenses exceeding $75 dollars. These conditions occurred because
management did not have appropriate controls in place to prevent them.

To improve the administration of the travel card program, we made six
recommendations to the Chief Financial Officer (CFO) covering policies, procedures,
and oversight.


                                                Controls Over Travel Cards Need Strengthening
                                          2                       Report No. 17-13-001-13-001
                                           U.S. Department of Labor – Office of Inspector General




OCFO RESPONSE

The CFO agreed with all of the recommendations and the need to further enhance the
internal controls over the use of travel cards. The CFO stated that while he agrees
certain employees improperly incurred charges on their travel cards, employees are
responsible for charges and they do not represent a financial liability to DOL. We agree
with the CFO’s assertion; however, any travel card accounts that remain open after
employee separation, are not closed in a timely manner, or are used inappropriately
represent internal control deficiencies that should concern DOL in its management over
the travel card program.

The CFO also stated that employee expense reports go through a review and approval
process for compliance with DOL policies and are only paid after this process. In
addition, DOL has in place an audit process where targeted travel expense reports are
reviewed for compliance with DOL policies. Our audit work indicated that employee
travel vouchers were approved without required supporting receipts in E2 for lodging
and transactions incurred that exceeded $75.

The CFO’s entire response is contained in Appendix D.


RESULTS AND FINDINGS

Objective — Did the OCFO adequately administer the DOL travel card program?

      Travel card accounts could be suspended due to unauthorized activity.

DOL does not have adequate controls to administer the travel card program. We found
employees that incurred unauthorized transactions on their travel cards, employees that
did not travel who received travel cards anyway, and employee travel card accounts
that remained open after employees separated from DOL. In addition, we identified
vouchers within E2 that did not always include required supporting documentation for
travel expenses exceeding $75 dollars.

Finding — OCFO did not adequately administer the DOL travel card program.

Employees used their travel cards while not on official travel and for unauthorized
purchases while on official travel.

Our review of a statistical sample of 174 active travel card accounts from
October 1, 2010, through March 31, 2012, identified 37 accounts where employees
incurred $50,094 in transactions while not on official travel, and 7 accounts incurring
$5,367 in unauthorized transactions while on official travel. We noted that 1 account
incurred more than $10,000 in unauthorized transactions (see Exhibit 1).



                                                 Controls Over Travel Cards Need Strengthening
                                           3                       Report No. 17-13-001-13-001
                                          U.S. Department of Labor – Office of Inspector General


DLMS, Payment of Expenses Connected with Official Expenses, Section 1-1-105,
states, “Employees may not use a Government contractor-issued travel charge card for
purposes other than those associated with official travel.”

The Employee Guide for the Use of the Travel Charge Card states:

      Your government contractor-issued travel card is to be used for authorized
      official travel expenses only. Unauthorized purchases on your government
      contractor-issued travel card can result in suspension and/or cancellation
      of your travel card account as well as other disciplinary actions as deemed
      appropriate.

According to the U.S. DOL Charge Card Management Plan for Travel Card Services,
Section 4.4, the OCFO will monitor charge card reports to ensure that the travel card is
not used for the purchase of unauthorized or improper items and items not authorized
for use by the Government.

Our review of the Citibank database and E2 identified transactions employees incurred
while not on official travel that included retail purchases and ATM withdrawals, such as
those listed in Table 1 below.


          Table 1: Retail Purchases Not Associated with Official Travel
           Vendor                                                        Amount
           Penske Rental                                               $ 1,748.21
           Target                                                         $888.09
           Delta Tire Center                                             $731.22
           Wal-Mart                                                      $528.94
           Air Tran Airlines                                              $404.90
           Hilton Naples Grande                                           $210.10
           Chick-fil-A                                                   $126.67
           Total                                                       $4,638.13

We identified 7 accounts from our review of a statistical sample of 174 travel card
accounts on which the following unauthorized transactions totaling $5,367 were incurred
while on official travel:

    •	 3 accounts totaling $1,247.78 were used for transactions that were claimed at a
       higher amount on the approved vouchers than what was actually charged in the
       Citibank database. In addition, the associated receipts were not in E2 as
       required.

    •	 1 account totaling $477.88 was used for the unauthorized purchase of an
       additional hotel room while on official DOL travel. This transaction was neither
       claimed on a voucher nor documented in E2.



                                                Controls Over Travel Cards Need Strengthening
                                          4                       Report No. 17-13-001-13-001
                                                      U.S. Department of Labor – Office of Inspector General


     •	 3 accounts totaling $3,641.22 were used for ATM withdrawals that exceeded the
        cash transaction expenses allowed on the approved travel authorization (see
        Table 2).


Table 2 - ATM Withdrawals in Excess of Authorized Amount
                                 Authorized         Amount                                         Amount in
   Traveler      No. of Trips      Amount          Withdrawn                                        Excess
       1               6           $952.53         $3,677.56                                       $2,725.03
       2               1           $198.99           $231.09                                        $231.09 2
       3               3           $552.66         $1,237.76                                         $685.10
     Total            10          $1,704.18        $5,146.41                                       $3,641.22

DLMS, Advance of Funds, Section 1-10-3 (2)1, states:

        The advance is limited to the cash transaction expenses shown on the
        travel authorization. These are expenses for local transit system, taxis and
        tips, parking, tolls, laundry and dry cleaning, and other authorized
        miscellaneous expenses that cannot be charged using a Government
        contractor-issued charge card and for which a cost can be estimated.

Projected to all 8,959 active employee travel card accounts, we estimated:

     •	 960 employees incurred unauthorized transactions and ATM charges totaling an
        estimated $659,691 while on both official and non-official travel (see Exhibit 2).

     •	 822 incurred unauthorized transactions and ATM charges totaling an estimated
        $538,436 while not on official travel (see Exhibit 2).

     •	 302 incurred unauthorized transactions and ATM charges totaling an estimated
        $121,215 while on official travel (see Exhibit 2).

We found that while OCFO’s monitoring was limited to identifying delinquent accounts, it
did not include identifying travel cards used for unauthorized transactions. This lack of
monitoring enabled employees to use travel cards for unauthorized transactions,
thereby encouraging travel card abuse.

Government Charge Card Abuse Prevention Act of 2012, Section 3(I)(4), states:

        … each executive agency shall provide for appropriate adverse personnel
        actions to be imposed in cases in which employees of the executive
        agency fail to comply with applicable travel charge card terms and


2
  Entire amount withdrawn is unauthorized because the traveler purchased food on the travel card and withdrew cash
in excess of the per diem allowance.

                                                              Controls Over Travel Cards Need Strengthening
                                                      5                         Report No. 17-13-001-13-001
                                                     U.S. Department of Labor – Office of Inspector General


          conditions or applicable agency regulations or commit fraud with respect
          to a travel charge card, including removal in appropriate cases.

We provided OCFO officials with the names of the employees who were using their
travel cards for unauthorized transactions for OCFO’s follow up with component agency
officials to determine if disciplinary action is appropriate.

Employees were issued travel cards that were not used for at least two years.

Our review of 10,441 3 active and separated employees travel card accounts identified
1,133 4 travel cards that were issued, but the account had no usage for at least 2 years.

According to Section 2.2 of the U.S. DOL Charge Card Management Plan for Travel
Card Services:

          Prior to issuing an employee a travel card, the supervisor of the employee
          or appropriate senior official (e.g. administrative officer, division chief)
          must demonstrate the employee has a need for a travel card. The
          supervisory official must only approve card issuance for employees who
          must travel for the Department at least 2 times per year and must ensure
          that the employees have successfully completed the DOL travel card
          training requirements.

In addition, the Government Charge Card Abuse Prevention Act of 2012, signed by the
President on October 5, 2012, requires that periodic reviews be conducted to determine
whether each cardholder has a need for the card.

According to OCFO officials, agency officials request travel cards for staff that they
expect to travel at least two times per year, although program and budget changes may
prevent that travel from taking place. Furthermore, due to the time necessary to obtain a
travel card, OCFO officials said that agency officials want staff that may need to travel
to have a travel card just in case. However, we found DOL has an alternative for making
travel arrangements for employees who travel infrequently by using DOL’s centrally
billed account through which the appropriate component agency is charged the travel
expenses associated with air, rail, and bus transportation. Cash advances can also be
allowed in cases where financial hardship would be incurred by the employee if
sufficient funds are not advanced to cover expected transactions.

While OCFO officials were aware that travel cards were issued and maintained by
employees who traveled less than two times a year, they did not enforce the provision
outlined in their own policies and procedures.




3
    8,959 active employees and 1,482 separated employees
4
    934 active employees and 199 separated employees

                                                           Controls Over Travel Cards Need Strengthening
                                                     6                       Report No. 17-13-001-13-001
                                                          U.S. Department of Labor – Office of Inspector General


Employee travel card accounts were still open after separation.

Travel card accounts were not always cancelled in a timely manner when employees
separated. We reviewed the travel card accounts of 1,482 employees who separated
from DOL between October 1, 2010, and March 31, 2012, and found that 68 separated
employees still had open travel card accounts with Citibank as of March 31, 2012 (see
Exhibit 3). Of the remaining 1,414 travel card accounts, the DOL did not timely cancel
1,123 5 of these accounts upon the employees’ separation. DOL cancelled more than
half 6 within 30 days after the employee separated; however, 198 accounts were
cancelled a year or more after the employee separated, and 71 accounts were
cancelled between six months and a year after the employee separated (see Table 3).


Table 3 - Timing of Account Closures
Number of          Percentage of
Accounts             Universe            When Account was Cancelled after Separation
   198                 14%               1 year or greater
    71                  5%               At least 6 months but less than 1 year
    83                  6%               At least 3 months but less than 6 months
    53                  4%               At least 2 months but less than 3 months
    87                  6%               At least 1 month but less than 2 months
   631                 45%               At least 1 day but less than 1 month
   278                 20%               Cancelled on or before separation
    13                 <1%               Temporary Closures 7
  1,414                100%              Total

According to Section 2.3 of the U.S. DOL Charge Card Management Plan for Travel
Card Services, the cancellation of accounts must be performed on or before the date of
separation in instances where the employee is transferring to another federal agency,
retiring from federal service, or terminated. However, we learned from interviews with all
13 8 of the Department’s A/OPCs that DOL had not established standard policies and
procedures to notify them about separating travel cardholders, causing delays in
cancelling cardholders’ travel card accounts. Form DL 1-107, Separation Clearance, is
the principal document used for the clearance of Government funds and property in the
possession of departing employees. However, OCFO officials stated that it is not their
policy to use the form as a control to identify separating employees in order to cancel
their travel card accounts. A/OPCs stated that they are notified about employees whose
travel cards need to be cancelled through various means that include the


5
  1,414 travel card accounts less 13 accounts that were temporarily closed and 278 accounts that were cancelled on

or before separation

6
  631 accounts (45 percent) were cancelled at least one day after the employee separated, but less than one month 

and 278 accounts (20 percent) were cancelled on or before the employee separated.

7
  Accounts are temporarily cancelled if a travel card or official Citibank mail is returned due to an incorrect address.

An account may also be temporary cancelled if it is behind in payments, suspended two times within a 12-month

period, suspected of fraud, or Citibank failed to verify information on the account.

8
  This excludes the A/OPC from the Office of Inspector General.


                                                                  Controls Over Travel Cards Need Strengthening
                                                         7                          Report No. 17-13-001-13-001
                                                      U.S. Department of Labor – Office of Inspector General


Form DL 1-107, email, word of mouth, and/or from the separating employee
themselves.

According to OCFO officials, A/OPCs are required to request an agency separation
report(s) on a monthly basis, and close the account(s) of separated cardholders
accordingly. While this requirement is included in the U.S. DOL Charge Card
Management Plan for Travel Card Services, A/OPCs told us they were not aware of it. 9
However, based on the design of this control, even if the A/OPCs knew about and
requested the report, received it, and acted accordingly, the control would not ensure
timely account closure on or before the employee’s separation date because it is only
prepared monthly.

While none of the open travel card accounts had balances or appeared to have unusual
activity after the employee separated, any accounts remaining open or not cancelled
timely represent internal control deficiencies in the administration of the travel card
program that should concern DOL.

Travel vouchers were approved without required documentation in E2.

During the course of the audit, we found that employees did not always submit required
supporting receipts for lodging and transactions incurred that exceeded $75. Of the 174
employee travel accounts reviewed, we observed that 25 employees violated the
Federal Travel Regulations (FTR) by not submitting required supporting receipts for
transactions over $75, such as lodging, air fare, and car rental in E2 with the travel
vouchers for 46 trips totaling $34,162. While we were able to verify the transactions in
question in the Citibank database, agency officials approved vouchers for these trips in
the absence of supporting receipts in E2.

We projected to all 8,959 active employees’ travel card accounts and estimated that
1,240 lack supporting documentation in their travel vouchers for transactions over $75,
totaling an estimated $2.4 million (see Exhibit 2).

FTR, Section 301-11.25, states:

        You must provide a lodging receipt and receipt for every authorized
        expense over $75, or provide a reason acceptable to your agency
        explaining why you are unable to furnish the necessary receipt(s). …Hard
        copy receipts should be electronically scanned and submitted with your
        electronic travel claim when your agency has fully deployed ETS and
        notifies you that electronic scanning is available with your agency.

The DLMS, Payment of Expenses Connected with Official Expenses, Section 1-1-105,
g - Charge Card Usage, states:

9
 We found that only 1 of the Department’s 13 A/OPCs received the position-specific training required by OMB A-123,
Appendix B, prior to being placed in their position as an A/OPC. The training requires A/OPCs to certify that they
understand the travel regulations and procedures.

                                                              Controls Over Travel Cards Need Strengthening
                                                      8                         Report No. 17-13-001-13-001
                                           U.S. Department of Labor – Office of Inspector General




      Approving officials, when checking receipts for common carrier
      transportation, lodging, and all other claimed expenditures of $75.00 or
      more, and will ensure that the Government contractor-issued charge card
      had been used to incur such travel expenses.

According to OCFO officials, they are required to review about 15 percent of submitted
travel vouchers for supporting receipts, but mostly rely on agency approving officials to
ensure travelers submit supporting receipts over $75 with their vouchers. However, the
OCFO is responsible for ensuring component agency adherence to program
requirements.

As a result of unauthorized travel card transactions and potential unauthorized travel
card transactions by employees that have active travel card accounts when there is no
need for one, DOL is at risk of the travel card accounts being suspended for
unauthorized use and not being available when needed for official business. In addition,
by not closing travel card accounts of separated employees timely, DOL is at risk of
separated employees receiving new travel cards that could be used, because Citibank
automatically renews open travel card accounts every 3 years. Finally, without ensuring
that supporting receipts over $75 are included in E2, DOL is at risk of approving
vouchers for incorrect amounts or for travel expenses that were never incurred.


RECOMMENDATIONS

We recommend the CFO:

1.	   Require A/OPCs to close the travel card accounts of separated employees that
      are still open and develop policies and procedures for informing A/OPCs to close
      travel card accounts on or before date of separation to meet the requirements of
      the U.S. DOL Charge Card Management Plan for Travel Card Services.

2.	   Enforce established policies and procedures to conduct periodic reviews of travel
      card accounts to ensure cards are needed by the employees to which they are
      issued.

3.	   Increase monitoring of the travel card program to ensure A/OPCs receive
      required training and are closing travel card accounts timely.

4.	   Increase monitoring of the charge card reports and E2 to ensure travel card
      accounts are being used in accordance with regulations and guidance.

5.	   Follow up with component agency officials to ensure that appropriate actions are
      taken against employees who have used their travel card for unauthorized
      transactions.



                                                 Controls Over Travel Cards Need Strengthening
                                          9                        Report No. 17-13-001-13-001
                                        U.S. Department of Labor – Office of Inspector General


6.	   Provide reminder to DOL component agency staff on their responsibilities when
      reviewing travel vouchers and increase monitoring of E2 to ensure
      documentation for expenses over $75 dollars are included with the vouchers.


We appreciate the cooperation and courtesies that OCFO personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                              Controls Over Travel Cards Need Strengthening
                                       10                       Report No. 17-13-001-13-001
            U.S. Department of Labor – Office of Inspector General




Exhibits





                  Controls Over Travel Cards Need Strengthening
            11                      Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
            12                       Report No. 17-13-001-13-001
                                                U.S. Department of Labor – Office of Inspector General


                                                                                          Exhibit 1
     Transactions Incurred By Active Employees While Not On Travel

                                                                      Transaction
Employee      Account Status            Agency/ Region                Description               Total
1                       Open           OASAM - Chicago         Purchases and ATM         $ 10,586.47
2                       Open            OASAM - Atlanta        Purchases and ATM             5,972.04
3              Closed by DOL           OASAM - Chicago         Purchases and ATM             5,822.75
4          Temporary Closure       OASAM - Philadelphia        Purchases and ATM             5,592.91
5              Closed by DOL                        MSHA                      ATM            2,531.73
6           Closed by Citibank                       ESA       Purchases and ATM             2,211.10
7              Closed by DOL           OASAM - Chicago                        ATM            1,651.32
8                       Open            OASAM - Atlanta        Purchases and ATM             1,532.66
9                       Open                        MSHA                Purchases            1,385.20
10             Closed by DOL     OASAM - San Francisco                        ATM            1,078.75
11             Closed by DOL     OASAM -San Francisco                         ATM            1,022.00
12                      Open            OASAM - Dallas                  Purchases              926.93
13         Temporary Closure            OASAM - Dallas                  Purchases              888.09
14             Closed by DOL            OASAM - Dallas                  Purchases              823.30
15                      Open       OASAM - Philadelphia        Purchases and ATM               806.53
16                      Open            OASAM - Atlanta                 Purchases              747.25
17             Closed by DOL           OASAM - Chicago                        ATM              745.21
18             Closed by DOL                         ESA                Purchases              626.03
19         Temporary Closure                         ETA       Purchases and ATM               555.95
20             Closed by DOL     OASAM - San Francisco                        ATM              511.25
21                      Open         OASAM - Chicago                    Purchases              486.67
22             Closed by DOL     OASAM - National Office                Purchases              434.60
23             Closed by DOL         OASAM - New York                   Purchases              425.00
24                      Open                     BLS                    Purchases              404.90
25             Closed by DOL                   MSHA                     Purchases              380.74
26             Closed by DOL                        MSHA                Purchases              304.74
27                      Open     OASAM - National Office                Purchases              297.98
28                      Open            OASAM - Atlanta                       ATM              292.34
29             Closed by DOL                         ETA                      ATM              254.58
30         Temporary Closure           OASAM - Boston                  Purchases               182.66
31                     Open          OASAM - New York          Purchases and ATM               121.38
32            Closed by DOL            OASAM - Dallas                        ATM               105.32
33                      Open            OASAM - Dallas                        ATM              104.30
34             Closed by DOL           OASAM - Chicago                  Purchases               93.37
35                      Open       OASAM - Philadelphia                 Purchases               84.46




                                                       Controls Over Travel Cards Need Strengthening
                                               13                        Report No. 17-13-001-13-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                 Transaction
Employee   Account Status          Agency/ Region                Description               Total


36          Closed by DOL   OASAM - National Office                Purchases               78.17
37                  Open                       ESA                 Purchases               25.00
                                                                         Total      $ 50,093.68




                                                 Controls Over Travel Cards Need Strengthening
                                          14                       Report No. 17-13-001-13-001
                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                           Exhibit 2
Statistical Results and Projections

Financial Results and Projections
                            Univ
                            erse                  Exceptions         Point     Sampling
 Condition                  Size   Sample Size            ($)     Estimate     Precision     Lower Limit   Upper Limit
                                                                                                  95 % Confidence level
 Unauthorized
 transactions and ATM
 charges incurred while
 on and not on
 authorized official DOL
 travel.                    8959           174        $55,461     $659,691      $508,327       $151,363     $1,168,018
 Unauthorized
 transactions and ATM
 charges incurred while
 not on authorized
 official DOL travel.       8959           174        $50,094     $538,436       $34,170       $504,266       $572,605
 Unauthorized
 transactions and ATM
 charges incurred while
 on authorized official
 DOL travel.                8959           174         $5,367     $121,215       $14,573       $106,642       $135,788
 Lack of supporting
 documentation for
 transactions over $75      8959           174        $34,162    $2,436,482    $2,017,622      $418,860     $4,454,103

Attributes Results and Projections
                            Universe    Sample    Exceptions          Point      Sampling       Lower
 Condition                      Size      Size            (#)      Estimate      Precision       Limit     Upper Limit
                                                                                                  95 % Confidence level
 Unauthorized
 transactions and ATM
 charges incurred
 while on and not on
 authorized official                                                 10.72%
 DOL travel. 10                 8959        174            41            960          660          300           1,621
 Unauthorized
 transactions and ATM
 charges incurred
 while not on
 authorized official                                                  9.17%
 DOL travel.                    8959        174            37            822          648          174           1,469
 Unauthorized
 transactions and ATM
 charges incurred
 while on approved                                                    3.37%
 official DOL travel.           8959        174              7           302          395            7             697
 Lack of supporting
 documentation for                                                   13.84%
 transactions over $75          8959        174            25          1,240          706          534            1946




10
     3 accounts had unauthorized transactions and ATM Charges incurred while on and not on authorized official travel


                                                                 Controls Over Travel Cards Need Strengthening
                                                        15                         Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
            16                       Report No. 17-13-001-13-001
                                                          U.S. Department of Labor – Office of Inspector General


                                                                                                    Exhibit 3
Separated Employees With Open Travel Card Accounts


                                                                           Date account        Days account
                                                                                    11
                                                           Separation      cancelled (If      was open after
     Employee                   Agency/ Region                  Date         applicable)         separation
     1                           OASAM - Dallas             10/6/2008                                    1272
     2                     OASAM - Philadelphia            10/11/2008                                    1267
     3                  OASAM - National Office            10/11/2008                                    1267
     4                                       SOL           10/25/2008                                    1253
     5                                     MSHA            10/31/2008                                    1247
     6                                     MSHA             11/3/2008                                    1244
     7                  OASAM - National Office             11/7/2008                                    1240
     8                       OASAM - New York               11/8/2008                                    1239
     9                                     OSHA             11/8/2008           8/13/2012                1239
     10                 OASAM - National Office            11/21/2008                                    1226
     11                 OASAM - National Office            11/22/2008                                    1225
     12                 OASAM - National Office            12/20/2008                                    1197
     13                 OASAM - National Office             1/20/2009                                    1166
     14                         OASAM - Atlanta             5/18/2009           7/13/2012                1048
     15                 OASAM - National Office              6/3/2009                                    1032
     16                         OASAM - Atlanta              6/5/2009           7/11/2012                1030
     17                 OASAM - National Office             6/11/2009                                    1024
     18                 OASAM - National Office             6/20/2009                                    1015
     19                         OASAM - Atlanta             6/20/2009                                    1015
     20                      OASAM - New York               6/30/2009                                    1005
     21                                    MSHA             6/30/2009                                    1005
     22                 OASAM - National Office             6/30/2009           12/4/2012                1005
     23                                       BLS            7/3/2009                                    1002
     24                         OASAM - Atlanta             7/25/2009           7/11/2012                 980
     25                                    OSHA             7/30/2009           8/13/2012                 975
     26                                    MSHA             7/31/2009                                     974
     27                                    MSHA             7/31/2009                                     974
     28                                    MSHA             7/31/2009                                     974
     29                 OASAM - National Office             8/15/2009                                     959
     30                         OASAM - Atlanta             8/29/2009                                     945
     31                         OASAM - Atlanta             8/29/2009           7/13/2012                 945
     32                                    OSHA             9/26/2009                                     917
     33                 OASAM - National Office            10/10/2009                                     903
     34                      OASAM - New York              10/23/2009                                     890


11
     16 accounts cancelled subsequent to March 31, 2012

                                                                Controls Over Travel Cards Need Strengthening
                                                      17                          Report No. 17-13-001-13-001
                                     U.S. Department of Labor – Office of Inspector General




                                                        Date account      Days account
                                                                 11
                                      Separation       cancelled (If     was open after
Employee          Agency/ Region           Date           applicable)       separation
35         OASAM - National Office    10/31/2009                                     882
36                OASAM - Atlanta     12/31/2009            7/11/2012                821
37         OASAM - National Office         1/2/2010                                  819
38                OASAM - Atlanta         2/13/2010                                  777
39                OASAM - Atlanta          6/5/2010         7/11/2012                665
40               OASAM - Chicago          7/12/2010                                  628
41               OASAM - Chicago          7/31/2010                                  609
42                          OSHA          7/31/2010                                  609
43         OASAM - National Office         9/3/2010       10/25/2012                 575
44                          OSHA          9/30/2010                                  548
45                            BLS         10/1/2010                                  547
46                            BLS         10/1/2010       10/24/2012                 547
47                         MSHA       11/16/2010                                     501
48                OASAM - Atlanta     12/31/2010            7/11/2012                456
49                            BLS     12/31/2010                                     456
50         OASAM - National Office    12/31/2010                                     456
51         OASAM - National Office    12/31/2010                                     456
52                OASAM - Dallas      12/31/2010            11/8/2012                456
53               OASAM - Chicago      12/31/2010             8/6/2012                456
54                            BLS          1/1/2011                                  455
55                            BLS          1/1/2011                                  455
56                            BLS         1/29/2011                                  427
57               OASAM - Chicago           5/7/2011                                  329
58                OASAM - Atlanta          5/7/2011         7/11/2012                329
59           OASAM - Philadelphia         5/30/2011         12/4/2012                306
60                            BLS          6/3/2011                                  302
61               OASAM - Chicago           7/7/2011                                  268
62               OASAM - Chicago          7/11/2011                                  264
63                           SOL          10/1/2011                                  182
64                           SOL          10/8/2011                                  175
65         OASAM - National Office    10/31/2011                                     152
66         OASAM - National Office    11/19/2011                                     133
67                         MSHA       12/31/2011                                      91
68                         MSHA           3/24/2012                                     7




                                             Controls Over Travel Cards Need Strengthening
                                     18                        Report No. 17-13-001-13-001
              U.S. Department of Labor – Office of Inspector General




Appendices





                    Controls Over Travel Cards Need Strengthening
              19                      Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
            20                       Report No. 17-13-001-13-001
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix A
Background

The Travel and Transportation Reform Act of 1998 requires government employees to
use the travel card on official business to pay for official expenses, such as hotel rooms
and airline tickets. In 2008, DOL selected Citibank to provide purchase and travel card
services under GSA’s SmartPay 2 program. OMB A-123, Appendix B, sets forth the
policies and procedures federal agencies should use to maintain internal controls that
reduce the risk of fraud, waste, and error in Government charge card programs.
OMB A-123 also establishes minimum requirements and suggested best practices for
card use. DOL has established travel policies and procedures through DLMS,
Chapter 7, General Travel Regulations.

In late 2006, DOL migrated to E2 as part of the OMB E-Government initiative. This
end-to-end automated travel management solution allows travelers to electronically
generate and submit travel authorizations for approval, and make online travel bookings
through the DOL’s Travel Management Center. E2 is DOL’s ETS for authorizing travel;
booking flights, rooms, and cars; and processing vouchers for reimbursement.

The OCFO is responsible for the DOL travel card program’s administration, in
accordance with the U.S. DOL Charge Card Management Plan for Travel Card Services
and DLMS, Chapter 7. However, responsibilities such as travel card applications,
approval of travel, monitoring and account closure are executed at the component
agency and regional level. The A/OPCs serve as the liaison between the DOL
agency/organization, Citibank, and the cardholder. Their responsibilities include
ensuring that appropriate steps are immediately taken to cancel the travel card
accounts for cardholders who separate and/or transfer from or within the Department.
The OCFO is responsible for ensuring that A/OPCs complete all required travel related
training and A/OPCs are required to complete the GSA’s A/OPC travel card training
once appointed to the position, and to complete refresher training every 3 years.

This audit was initiated when a former senior level employee informed the OIG that he
received a new Government travel card after he had separated from DOL.




                                                 Controls Over Travel Cards Need Strengthening
                                          21                       Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
            22                       Report No. 17-13-001-13-001
                                                      U.S. Department of Labor – Office of Inspector General


                                                                                             Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Did the OCFO adequately administer the travel card program?

Scope

The audit covered separated employees who participated in the travel card program
from FYs 2009 through 2011 and the first two quarters of FY 2012, and active
employees who participated in the travel card program during FY 2011 through the first
two quarters of FY 2012. We conducted fieldwork at the OCFO national office in
Washington, DC, and conducted phone interviews with the regional offices.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

We interviewed OCFO officials and all 13 12 of DOL’s A/OPCs from the national and
regional offices to gain an understanding of the travel card program and the account
closure process. We identified federal and departmental requirements related to travel
cards, and reviewed DOL’s Human Resource and Citibank databases to identify
separated employees who were issued a travel card while employed with DOL.

To develop our universe of active DOL employees who had a travel card account and
incurred transaction activity during the period of FY 2011 through the first two quarters
of FY 2012, the OASAM Office of Human Resources provided us with a list of all DOL
employees (active and separated) for our audit period; and Citibank Officials provided
us with all open and cancelled DOL travel card accounts from Citibank travel card
database. We merged the information from both sources using employee social security
numbers, and sorted the data by employment status, last transaction date, and
agency/region. We identified 8,959 travel card accounts (see Table 4).




12
     This excludes the Office of Inspector General.

                                                            Controls Over Travel Cards Need Strengthening
                                                      23                      Report No. 17-13-001-13-001
                                          U.S. Department of Labor – Office of Inspector General




                   Table 4: Universe of Active Employees with
                   Citibank Travel Accounts
                                               Active Employees with
                     Agency/Region                  Citibank Accounts
                     ESA                                 235

                     ETA                                 128

                     OSHA                                177

                     OASAM NY                            667

                     OASAM Boston                        308
                     OASAM Philadelphia                  691
                     OASAM Atlanta                      1134
                     OASAM Chicago                      1096
                     OASAM Dallas                       1027
                     OASAM Kansas City                   204
                     OASAM Denver                         0
                     OASAM San Francisco                 911
                     OASAM NO                            564
                     MSHA                               1409
                     BLS                                 408
                     Total                              8959

We selected a statistical sample from each agency/region. From the universe of 8,959
Citibank travel card accounts, we used a single-stage stratified sample design to select
174 accounts. This sample was estimated using a 95 percent confidence level with a
precision of plus or minus 10 percent. We projected the sample results to the universe
of 8,959 accounts, as shown in Exhibit 2.

To determine if travel accounts were being used in accordance with departmental
guidance and included supporting documentation in E2, we reviewed every transaction
incurred from October 1, 2010, through March 31, 2012, for the 174 sampled accounts.
We compared account activity for the 174 sampled accounts in the Citibank database to
approved travel authorizations and related vouchers to determine if the activity was
used in accordance with departmental guidance. We also determined whether all
supporting documentation was included in E2 as required.

To develop our universe of separated employees who had travel card accounts,
OASAM’s Office of Human Resources provided us with a list of all DOL employees
(active and separated) from the DOL Web-Par database for our audit period; and
Citibank Officials provided us with all open and cancelled DOL travel card accounts
from the Citibank travel card database. We merged the information from both sources
using employee social security numbers, which identified 1,482 separated employees
who had travel card accounts (see Table 5).




                                                Controls Over Travel Cards Need Strengthening
                                         24                       Report No. 17-13-001-13-001
                                          U.S. Department of Labor – Office of Inspector General




                   Table 5: Universe of Separated Employees
                   with Citibank Travel Accounts
                                               Separated Employees
                    Agency/Region              with Citibank Accounts
                    BLS                                   81
                    ESA                                   67
                    ETA                                   32
                    OSHA                                  46
                    OASAM NY                              98
                    OASAM Boston                          45
                    OASAM Philadelphia                   102
                    OASAM Atlanta                        178
                    OASAM Chicago                        160
                    OASAM Dallas                         146
                    OASAM Kansas City                     22
                    OASAM Denver                          0
                    OASAM San Francisco                  126
                    OASAM N.O.                           142
                    MSHA                                 237
                    Total                               1482

We analyzed the travel card accounts of all 1,482 separated employees to determine if
any were open. For those open accounts, we reviewed the Citibank bank database to
determine if the account had a current balance and if activity had occurred after the
employee was separated. For any employees who had cancelled accounts, we
compared the account status code and the last account status change date in the
merged databases to identify the date that travel cards were cancelled. We compared
the cancelled date to the employees’ separation date to determine if the travel card was
cancelled in a timely manner.

We performed a data reliability assessment to ensure we had complete and accurate
data by comparing the list obtained from OASAM HR to the universe provided by
Citibank before merging the two databases together. We also reviewed the computer
program used to extract the list of all DOL employees (active and separated), to ensure
its accuracy. We concluded the data to be sufficiently reliable for our audit purposes.

In planning and performing our audit, we considered OCFO’s internal controls that were
relevant to our audit objective. We confirmed our understanding of these controls
through interviews and reviews of policies and procedures. Our consideration of internal
controls relevant to our audit objective would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
noncompliance may nevertheless occur and not be detected.




                                                Controls Over Travel Cards Need Strengthening
                                         25                       Report No. 17-13-001-13-001
                                      U.S. Department of Labor – Office of Inspector General


Criteria

   •	 DLMS, Chapter 7, dated June 2000

   •	 The Government Charge Card Abuse Prevention Act of 2011

   •	 OMB Circular A-123, Appendix B, revised January 2009

   •	 U.S. Department of Labor Charge Card Management Plan for Travel Card
      Services, dated January 2011

   •	 DOL Personnel Regulations, Chapter 179 – Separation Clearance for DOL
      Employees

   •	 FTR – GSA, Office of Government Wide Policy – Chapter 301 – Temporary Duty
      Travel Allowances, issued January 2004




                                            Controls Over Travel Cards Need Strengthening
                                      26                      Report No. 17-13-001-13-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix C
Acronyms and Abbreviations


A/OPC         Agency/Organization Program Coordinator

CFO           Chief Financial Officer

DLMS          Department of Labor Manual Series

DOL           Department of Labor

E2            E2 Solutions

ETS           Electronic Travel Service

FTR           Federal Travel Regulations

FY            Fiscal Year

GSA           General Services Administration

OASAM         Office of the Assistant Secretary for Administration and Management

OCFO          Office of the Chief Financial Officer

OIG           Office of Inspector General

OMB           Office of Management and Budget




                                                Controls Over Travel Cards Need Strengthening
                                        27                        Report No. 17-13-001-13-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                   Controls Over Travel Cards Need Strengthening
            28                       Report No. 17-13-001-13-001
                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                        Appendix D
OCFO Response to Draft Report



    U.S. Department of Labor                    Office of the Chief Financial Officer
                                                Washington, D .C. 20210


              AUG -7 2013


          MEMORANDUM FOR:


          FROM:


          SUBJECT:                       udit of DOL Travel Card Program
                                        Draft Audit Report No. 17-13-001-13-001


          We appreciate the opportunity to comment on the revised Draft Audit Report No. 17-13-001-13-
          001 dated July 30, 2013 issued by the Office of the Inspector General (OIG), as a result of the
          OIG's recent audit of the Department's travel card program. We agree with the OlG
          recommendations and the need to further enhance internal controls over the use of travel cards
          and will continue to make needed improvements.

          The DOL travel card program has various controls in place that we believe properly safeguard
          government resources. First, in order to obtain a travel card, employees must complete the DOL
          required training on travel card procedures and policies (which training must be repeated every 3
          years) and meet the requirements for the travel card from the travel card issuer, which is
          Citibank. The travel cards that employees obtain are similar to personal credit cards in that the
          employees are responsible for all charges to the cards and for the payment of the charges
          incurred to Citibank. Therefore, the employees are personally liable for these charges and those
          charges will not be reimbursed to them. Even though we agree with the OIG that certain
          employees improperly incurred charges on their travel cards, issues 1, 2, and 3 discussed below
          do not represent financial liability to the Department.

          New legislation has been enacted by Congress that will enable federal agencies to take more
          aggressive measures to prevent the misuse/abuse of Government charge cards and strengthen
          internal controls. As an example, this legislation includes provisions which enable agencies to
          suspend and terminate the employment of employees who misuse/abuse the cards. Federal
          agencies must implement this legislation within the next 3-4 months. DOL has begun the
          implementation.

          Second, in order to be reimbursed for any travel costs, employees must submit an expense report
          detailing all costs incurred, including appropriate charges on the travel cards. The expense
          reports go through a review and approval process for compliance with DOL policies. It is only
          after this review and approval that employees are reimbursed for appropriate travel costs. In
          addition, DOL has in place an audit process where targeted travel expense reports are reviewed
          for compliance with DOL policies.




                                                                    Controls Over Travel Cards Need Strengthening
                                                        29                            Report No. 17-13-001-13-001
                                             U.S. Department of Labor – Office of Inspector General




The following are the OCFO's comments with respect to the specific findings and
recommendations presented in the OIG draft report.

   l. Improper use of travel cards. Employees used their travel cards while not on official
      travel and for unauthorized purchases while on official travel. The OIG determined that
      of 174 active travel card accounts reviewed during the period from October 1, 2010
      through March 31, 2012, there were 41 instances in which cardholders incurred expenses
      that were not related to official travel.

       OIG Recommendations:

       a) Increase monitoring of the charge card reports and E2 to ensure travel card accounts
          are being used in accordance with regulations and guidance.

       b) Follow up with component agency officials to ensure that appropriate actions are
          taken against employees who have used their travel card for unauthorized
          transactions.

       Response: While it must be understood that these charges are the responsibility of the
       individual, and do not obligate the department, the OCFO is taking the following actions
       to improve internal controls:

       I) Explore the feasibility oflowering the account credit limits to one dollar after 30 days
          of no travel to reduce instances of personal use of the travel card. When an employee
          is next scheduled for official travel, the National and Regional Agency Organization
          Program Coordinators (A/OPCs) as well as OCFO's Travel Management Division
          will have the ability to restore the credit limits.

       2) Provide additional training, as needed, to the travel card holders and A/OPCs through
          informational emails to ensure that everyone understands the Departmental policy as
          to the appropriate use of travel cards and that the A/OPCs are monitoring travel card
          transaction activities on a regular basis.

   2. Employees were issued travel cards that were not used for at least two years. The
      OIG reviewed 10,441 active (October 1, 2010 through March 31, 2012) and separated
      employees (October 1, 2009 through March 31, 2012) travel card accounts and identified
      1,13 3 travel cards that were issued but the account had no usage for at least two years.

       OIG Recommendations:

       a) Enforce established policies and procedures to conduct periodic reviews of travel card
          accounts to ensure cards are needed by the employees to which they are issued.

       b) Increase monitoring of the travel card program to ensure A/OPCs receive required
          training and are closing travel card accounts timely.

       Response: To strengthen controls the OCFO will:




                                                      Controls Over Travel Cards Need Strengthening
                                            30                          Report No. 17-13-001-13-001
                                         U.S. Department of Labor – Office of Inspector General




   Institute a Travel Card account inactivity monitoring procedure whereby the OCFO will
   notify the A/OPCs of any travel card accounts that were inactive for 180 days or more to
   cancel the card if determined that the cardholder no longer has a need for the card.

3. Employee travel card accounts were still open after separation. Travel card accounts
   were not always cancelled timely when employees separated. The OIG reviewed the
   travel card accounts of 1,482 employees who separated from DOL between October 1,
   2009 and March 31,2012 and found that 68 separated employees still had open travel
   card accounts with Citibank as of March 31, 2012. Of the remaining 1,414 travel card
   accounts, the Department did not timely cancel1,123 of these accounts upon the
   employees' separation. The OIG did note that none of the open travel card accounts had
   balances or appeared to have unusual activity after the employee separated.

   OIG Recommendations:

   a) Require A/OPCs to close the travel card accounts of separated employees that are still
      open and develop policies and procedures for informing A/OPCs to close travel card
      accounts on or before date of separation to meet the requirements of the U.S. DOL
      Charge Card Management Plan for Travel Card Services.

   b) Increase monitoring of the travel card program to ensure A/OPCs receive required
      training and are closing travel card accounts timely.

   Response: To strengthen controls the OCFO will:

   1) Explore an update to the DLMS to centralize the cancellation of travel related
      accounts within OCFO's Travel Management Division.

   2) Utilize Form DL 1-107, Separation Clearance and the bi-weekly employee separation
      report from the HR system to ensure that travel card accounts of separated employees
      have been cancelled.

4. Receipts documentation. The OIG determined that of the 174 travel vouchers reviewed
   during the period from October 1, 2010 through March 31,2012,25 vouchers did not
   include receipts for travel expenses over $75, as required by Federal regulation and
   Departmental policy.

   OIG Recommendation:

   Provide reminder to DOL component agency staff on their responsibilities when
   reviewing travel vouchers and increase monitoring of E2 to ensure documentation for
   expenses over $75 dollars are included with the vouchers.

   Response: To strengthen controls the OCFO will:




                                                  Controls Over Travel Cards Need Strengthening
                                        31                          Report No. 17-13-001-13-001
                                              U.S. Department of Labor – Office of Inspector General




       1) Provide additional training, as needed, to the travel card holders and the expense
          report reviewing/approving officials through informational emails to ensure that
          everyone understands the Departmental policy as to the requirement for receipts for
          all travel expenses of $75 or more for validating charges claimed for reimbursements.

       2) Continue to conduct targeted audits to determine that travel approving officials (i.e.,
          the supervisors/managers of travelers) are ensuring that adequate and appropriate
          receipts or documentation are attached to travel vouchers to support all expenses
          charged.

If there are any questions regarding this matter, please contact Madhuri Edwards at
edwards.madhuri.m@dol.gov.

Cc:    Karen Tekleberhan, Deputy Chief Financial Officer
       Myrian M. Myer, Associate Deputy Chief Financial Officer
       Madhuri Edwards, Director ofTravel and Quality Assurance
       Cynthia Jones, Director of Financial Policy
       Stanley Karczewski, Director of Financial Reporting and Compliance




                                                       Controls Over Travel Cards Need Strengthening
                                             32                          Report No. 17-13-001-13-001
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix E
Acknowledgements

Key contributors to this report were Tracy Katz, Zaunder Saucer, Tinuke Aruwayo,
Steven Johnson, Deborah Jarmon, and Ajit Buttar.




                                               Controls Over Travel Cards Need Strengthening
                                        33                       Report No. 17-13-001-13-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
